  Department of Health and Human Services

          OFFICE OF

     INSPECTOR GENERAL





MEDICARE BENEF CIARY SATISFACTION:

               1995





           #>-       -0’
                           *




                 $
          $                    JUNE GIBBS BROWN
          :                    Inspector General
          s
           %
            %.
             %,                  DECEMBER 1996
              %d~~
               >                  OEI-04-93-00150
                    OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.



                      Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the

Office of Inspector General. It conducts short-term management and program

evaluations (called inspections) that focus on issues of concern to the Department, the

Congress, and the public. The inspection reports provide findings and

recommendations on the efficiency, vulnerability, and effectiveness of departmental

programs.


OEI’S Atlanta Regional Office prepared this report under the direction of Jesse J.

Flowers, Regional Inspector General, and Christopher Koehler, Deputy Regional

Inspector General. Principal OEI staff included:


Retion                                           Headmasters


Betty Apt, Team Leader                           Stuart Wright, I+ogram Specialist

James Green, Contractor                          Brian Ritchie, Technical Support

Jackie Watkins, Program Analyst                  Barbara Tedesco, Stat&ician

Joe Townsel, Program Analyst

Tammy Hipple, Statistician





To obtain a copy of this report, call the Atlanta Regional Office at 404-331-4108.

Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





EDICARE BENEFICIARY SATISFACTION:
              1995




                      -0,
          ~+~’”             9


         #                      JUNE GIBBS BROWN
         $                      Inspector General
         s
         ‘5 @
           %++                    DECEMBER 1996
              >
             4*daa€
                                   OEI-04-93-00150
                   EXECUTIVE                        SUMMARY


PURPOSE

To determine beneficiary experience and satisfaction with Medicare services.

BACKGROUND

This is the fifth survey the Office of Inspector General (OIG), Department of Health
and Human Services (HHS), has conducted to determine beneficiary experience and
satisfaction with Medicare services. In September 1995, we surveyed 1244 randomly
selected beneficiaries for whom Medicare Part B claims were submitted in Calendar
Year 1994. Participation in the survey was voluntary and yielded a response rate of 76
percent--942 beneficiaries.

FINDINGS

Beneficiaries report positive experience with the Medicare program.

  �	
            Beneficiary Understanding--Eighty percent of the beneficiaries responding to
            our survey said the Medicare program was understandable.

  �	
            Getting Information--Seventy-eight percent of the beneficiaries said they could
            get information about Medicare when they needed it. Most beneficiaries said
            they would consult their physician (70 percent) or their Medicare Handbook
            (56 percent) to get specific information.

       �	   Claims Processing--Eighty-seven percent of the beneficiaries said they were
            satisfied with the way Medicare carriers processed their claims.

Beneficiary understanding of and satisfaction with certain Medicare seMces has
improved.

  �
            Claims Processing--In 1994, 30 percent of beneficiaries said they experienced at
            least one problem with their last Medicare claim. In 1995, the percent of
            beneficiaries who experienced a problem dropped to 19 percent.

  �	
            Speed of Claims Processing--In 1994, 73 percent of beneficiaries said Medicare
            paid their claims quickly enough. In 1995, 80 percent said their claims were
            paid quickly enough.

  �	
            Home Health Charges--In 1994, 32 percent of the beneficiaries who had
            received home heal;h services did not understand what home health services
            Medicare paid for. That percent decreased to 11 percent in 1995.



                                                i
Certain Medicare program semkes which needed improvement in 1994 continued to
need improvement in 1995.

  �	
       Telephone Semke--Fifty-eight percent of beneficiaries who had called their
       carriers experienced at least one problem when calling. Twenty-eight percent
       who had tried to call had to call three or more times to get through.

  �	
       Second Surgical Opinions--Sixty percent of the beneficiaries surveyed did not
       know Medicare pays for a second opinion on the need for surgery.

  9	
       Physician Fees--Twenty-six percent of the beneficiaries surveyed did not know
       Medicare limits physicians’ fees for specific sefices.

  s	   Appeal Rights--Thirty-four percent of beneficiaries surveyed did not know they
       could appeal or request a review of decisions Medicare carriers made about
       their claims. Further, 31 percent of beneficiaries who had appealed did not
       understand the final appeal decision.

  �	
       Hospital Charges--Nineteen percent of the beneficiaries who had been
       hospitalized did not understand what hospital charges Medicare had paid for.

Other program seMces also need improvement.

  �	
       Flu Immunizations--One-fourth (24 percent) of the beneficiaries surveyed did
       not know Medicare paid for flu immunizations.

  �	
       Mammograms--One-fourth (24 percent) of the female beneficiaries surveyed
       did not know Medicare paid for mammograms.

  *	   Hospice Care--Forty-two percent of beneficiaries did not know Medicare paid
       for hospice care.

  �	
       Peer Review Organizations (PRO}-Over three-fourths (78 percent) of the
       beneficiaries did not know each State has a Medicare-funded PRO to monitor
       the cost and quality of health care provided to Medicare beneficiaries.

RECOMMENDATION

We recommend that the Health Care Financing Administration develop a plan for
improving beneficia~ satisfaction and understanding in the problem areas mentioned
above.




                                           ii
AGENCY     COMMENTS

The HCFA Administrator commented on our report, and concurred with our
recommendation. He reported that HCFA has implemented new Contractor
Performance Evaluation procedures that allow regional offices to expand their reviews
to include customer service areas that need special attention, such as telephone
setice. Further, the new procedures ensure that beneficiary input is incorporated into
reviews. The HCFA is also revising letters to beneficiaries to improve the clarity of
information about appeals.




                                          .. .
                                          111

                     TABLE                    OF CONTENTS

                                                                                                                                                         PAGE
EXECUTIVE       SUMMARY

INTRODUCHON            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


   Beneficiaries Report Positive Experience with the Medicare                                            Program                         .   .   .   .   .   . . . 3

        Generally Understand the Program . . . . . . . . . . . . .                                       .. .... .                   .   .   .   .   .   .   ...3

        Can Get Needed Information . . . . . . . . . . . . . . . . .                                     ... ....                    .   .   .   .   .   .   ...4

        Knew About and Used Participating Physicians . . . .                                             .. .... .                   .   .   .   .   .   .   . . . 5

        Are Satisfied With Claims Processing . . . . . . . . . . . .                                     .. .... .                   .   .   .   .   .   .   . ..6

        Are Satisfied with Carrier Telephone Service . . . . . .                                         .. .... .                   .   .   .   .   .   .   . . . 7


   Beneficiary Understanding of and Satisfaction with Certain
   Medicare Services has Improved . . . . . . . . . . . . . . . . . . .                                  .   .   .   .   .   .   .   .   .   .   .   .   .   ...8

        Fewer Identified Claims Processing Problems           ... ..                                     .   .   .   .   .   .   .   .   .   .   .   .   .   . . . 8

        More Satisfied with Speed of Claim Payments . . . . .                                            .   .   .   .   .   .   .   .   .   .   .   .   .   . . 10

        More Understand Home Health Payments . . . . . . .                                               .   .   .   .   .   .   .   .   .   .   .   .   .   . . 10


   Certain Services Continue to Need Improvement                             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . . . 10

        Calling Carriers . . . . . . . . . . . . . . . . . . .           .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...10

        Second Surgical Opinions . . . . . . . . . . . . .               .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...13

        Limits on Physician Fees.....           ........                 .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...13

        Appeal Rights . . . . . . . . . . . . . . . . . . . . .          .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...14

        Appeal Decisions . . . . . . . . . . . . . . . . . . .           .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...14

        Understanding Hospital Payments . . . . . .                      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...15


   Other Program ServicesAlso Need                    Improvement              . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . . . 15

        Flu Immunizations . . . . . . . .             ........ ...           . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...15

        Mammograms      .. ........                   ...........            . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...15

        Hospice Care . . . . . . . . . . .            ...........            . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...15

        Peer Review Organizations .                   ...........            . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ...15


RECOMMENDATION                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...16


AGENCY     COMMEN’1ll             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...17


ENDNOTES        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. ’. . . . . . . . . . . . ...18


APPENDICES

   Responses to 1995 Survey of Medicare Beneficia~ Satisfaction . . . . . . . . . . . A-1

   Analysis of Respondents vs. Non-Respondents             . . . . . . . . . . . . . . . . . . . . . . . B-1

   HCFA Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-1

                         INTRODUCTION


PURPOSE

To determine beneficiary experience and satisfaction with Medicare services.

BACKGROUND

Medicare is a Federal health insurance program for individuals age 65 and older, and
for certain categories of disabled people. Medicare was authorized in 1965 by title
XVIII of the Social Security Act. In Fiscal Year 1995, Medicare served approximately
37.6 million people, known as beneficiaries, and paid benefits totalling over $159
billion.1

The Health Care Financing Administration (HCFA), Department of Health and
Human Services (HHS), has responsibility for the Medicare program. However, other
organizations share program administration. The Social Security Administration
establishes eligibility, enrolls beneficiaries in the program, and collects Medicare
premiums. Private health insurance companies contract with the Federal Government
to service claims for Medicare payment. Insurance companies that handle hospital
claims are called intermediaries. Those handling physician claims are called carriers.


METHoDs

In September 1995, we surveyed 1244 randomly selected Medicare beneficiaries. We
initially selected 1300 beneficiaries for whom Medicare Part B claims had been filed in
Calendar Year 1994. However, we dropped 56 beneficiaries from our sample because
22 questionnaires were undeliverable and 34 beneficiaries were deceased. This
reduced the sample size from 1300 to 1244. Appendix A contains our questionnaire
and beneficiaries’ responses to the questions.

Based upon previous experience with similar client and beneficiary surveys, the sample
size of 1300 beneficiaries was calculated to produce an estimate within 3.5 percent of
the true value at the 95 percent confidence level. We used standard equations for
estimating sample size with a binary response variable.

Beneficiary participation in the survey was voluntary. A total of 942 beneficiaries
returned completed questionnaires, for a response rate of 76 percent. Given the size
of our sample and response rate, results of our survey are protectable to the universe
of 37.6 million Medicare beneficiaries.

Percentages in the report are based on the number of beneficiaries answering each
question. Appendix B presents an analysis of respondents and non-respondents.



                                           1

In 1989,21991,31993,4 and 19945 we conducted similar national surveys of Medicare
beneficiaries to assess their awareness of and satisfaction with various aspects of the
Medicare program.

The majority of questions used in the 1995 survey were used in our 1993 and 1994
surveys. Therefore, Medicare beneficiary responses in 1993, 1994, and 1995 are
comparable. The 1993, 1994, and 1995 surveys were also similar to the 1989 and 1991
surveys. However, some questions were worded and sequenced slightly different.
Additionally, we provided more response options to questions in the 1993, 1994, and
1995 surveys than we did in the 1989 and 1991 surveys. Therefore, we cannot
compare beneficiary responses in each of the five sumey years for all questions.
However, we did make comparisons whenever possible, and determined significant
differences in responses through use of a t-test.

                                   -----   -----   ---


We conducted this inspection in accordance with the QuaMy Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              2

                                 FINDINGS


BENEFICIARIES         REPORT Posm         EXPERIENa        WITH THE MEDICARE
PROGRAM

Overall, beneficiaries were positive about several aspects of the Medicare program.
They said they understood the program and can get information when they need it.
Most beneficiaries areaware ofanduse pafiicipating physicians. And, most
beneficiaries who had called their carriers were at least generally satisfied with the
service they received, although over half of them cited problems when calling.




Eighty percent of the beneficiaries said that the Medicare program is understandable.
This is about the same as in 1994 when 79 percent said the program was
understandable. Figure 1 shows the level of understanding over the 5 years we have
surveyed Medicare beneficiaries.

                                      FIGURE 1
                             BENEFICIARIES UNDERSTAND
                              THE MEDICARE PROGRAM


                  PERCENT

           ‘“”~
            90

                  I              7Q                       7fi          80     I
            80

            70

            60

            50

            40

            30

            20

            10
              n
                      1989       1991       1993         1994         199s
                                            YEAR




                                            3

Benejkhtiix tin Get Needed Inf~tion

Getting General Information: Seventy-eight percent of the beneficiaries said they
could get general information about Medicare when they needed it. This is about the
same percent of beneficiaries who believed they could do so in 1994. Table 1 shows
the percent of beneficiaries who said they can get general information over the last 3
years.

                                         TABLE 1
                  BENEFICIARIES      CAN GET GENERAL              INFORMATION



                           Yes       I   72%         I   75%      I    78%    I
                           No            7%                  5%         5%
                        Don’t Know       21%             20%           17%

Getting Specific Information: Seventy-one percent of the beneficiaries who have
needed specific information about their Medicare coverage said they have been able
to obtain it most of the time. Table 2 shows that the percent of beneficiaries who
could get specific Medicare information most of the time remained high.

                                         TABLE 2
                  BENEFICIARIES      CAN GET SPECIFIC INFORMATION
                                                                                             7


 .:   C&    G@’    @@MMATION             1989            ~                   1994 I   1995

      Most of the Time                   58%             67%          60%    67?40    71%
      Some of the Time                   29%             23%          28%    23%      19%
      Seldom or Never                    13%             10%          12%    10%      9!Z0

sources of Information: From a list of possible places people might go to get answers
if they have questions about what Medicare pays for, beneficiaries were asked to
indicate which places they would go. They could check more than one source.

Most beneficiaries said they get Medicare information from their physicians’ offices
and the Medicare Handbook.      Seventy percent of all beneficiaries said they would go
to their physicians’ offices. This is an increase from 1994 when only 50 percent of the
beneficiaries said they would go to their physicians for Medicare information. Fifty-six
percent of the beneficiaries surveyed in 1995 said they would refer to the Medicare
Handbook.    This is about the same percent of beneficiaries who used the handbook in
1994.




                                                4

MiNt   Ben@&&s    Kiuw About Pazkipatingl%ysiciaras

Medicare has “participating physicians” who agree to charge no more than the
Medicare approved amount. Medicare pays 80 percent of the approved amount. A
beneficiary is responsible for paying a deductible and a 20 percent coinsurance.
Figure 2 shows that the number of beneficiaries who were aware of participating
physicians has changed relatively little during the 5 years we have surveyed Medicare
beneficiaries.
                                        FIGURE 2
         BENEFICIARY AWARENESS OF PARTICIPATING PHYSICIANS
                           PERCENT
                   100

                    go . ..........................................................ti ............................................................
                                                                                                          w
                    80 - ........77 ..................... .............

                    70 -.

                    60 -.

                    60 -.

                    40 --

                    30 --

                    20 --

                    10 --

                      .n
                                   W30                      W91                    m93                    1994                    t996
                                                                                  YEAR


Figure 3 shows that beneficiaries’ use of “participating physicians” in 1995 is the same
as in 1994.
                                       FIGURE 3
            BENEFICIARY USE OF PARTICIPATING PHYSICIANS
                               PERCENT




                           ao ................................ .............. .............. .. .. .......................................
                               t                                                                           71                    m           i




                                       198s                  ml                   lzzz                   m94                  W9s
                                                                                  WAR




Twenty-four percent of beneficiaries we sumeyed said they did not know if their
physicians were “participating.” Seventeen percent said they did not know their
carriers provided information on participating physicians.


                                                                                  5

Eighty-seven percent of the beneficiaries said they are at least “generally” satisfied with
the way Medicare carriers processed their claims. As Figure 4 illustrates, few
beneficiaries said they were dissatisfied.

                                    FIGURE 4
                      SATISFAC’ITON WITH CLAIM PROCESSING


                                             Very   Setiafied   48%




                                                                       Very Dissatisfied 1%
                                                                      Clalm Not Paid MI 2%
                                                                      Gen. Dls8at1811ed 2%


                                                                      )Ither   8%



               &rnerally   Satlsfled   39%




Figure 5 shows the number of beneficiaries expressing satisfaction remains high.
However, interpretation of trends for the past 5 years should be done with the
understanding that we changed our survey instrument in 1993. This change could
slightly affect the trend. The 1993, 1994, and 1995 surveys had a response option that
was not offered in 1989 and 1991. Also, in 1989, when beneficiaries could file their
own claims, we asked only those beneficiaries who submitted their own claims about
their satisfaction.




                                                6

                                                                  FIGURE 5
   TRENDS IN BENEFICIARY                                       SATISFACTION                                       WITH CLAIMS PROCESSING
                       PERCENT
                 1001                                    93
                 m ..............................-            ................
                                                                            ......83
                                                                                   ........................*       .......................Bz .................
                       80 .....................               .... ................        . . . ..........            .......... . . ..         ...............
                 60 -“-
                                 ....................         .....................       ........ ... . . .           .....................     ...............
                 70 ““”

                 60 ““”          .....................        .....................       .....................        . ..................      ...............

                 60 ““” ...............
                                     . ....                   ................
                                                                            .....         .................
                                                                                                         ..             ..............           ....
                                                                                                                                                    ...........

                 40 .-.          .....................        .....................       .....................        .....................     ..............-
                 3(J ...         ........... .........        .....................       ....................         .. .. ............        ... ...........

                 20 ..-          .....................
                                  ,2                          .....................                      ....................                    ...............
                                                                                          ““””””””w”””””””” 12
                 10 ““-
                   0
                                t989                      W91                         f3Q3                         1994                         1935
                                                                                      YEAR

                            =       SATISFIED                 =       DISSATISFIED                  ~       NEITHERAJNWID                      CLAIM




Mast Ben@ciati         are Satkjiedwith Canier TelZphoneStwice

About 16 percent of the beneficiaries we surveyed said they had tried to call their
carriers. Figure 6 shows that 85 percent of those beneficiaries who had called their
carriers said they were at least generally satisfied with the service they received the
last time they called.

                                                                 FIGURE 6
                 SATISFACTION                                 WITH CARRIER                                        PHONE SERVICE



                                                                               Gen Satisfied                     50%




                                                                                                                           ther       4%
                                                                                                                            Dlssatlsfled             4%
                                                                                                                          Issatisfied            7%
                                                              \                       /
                   Very Satisfied                  35%




                                                                                      7

Figure 7 shows that the percent of beneficiaries who were satisfied with carrier
telephone service in 1995 is about the same as in 1994.

                                                                    FIGURE 7
   TRENDS IN BENEFICIARY                                         SATISFACI’ION                                       WHEN CAUING                                         CARRIERS


                    PERCENT

               90   '--"-'--""-""-""-""""""-""--"--.--.8~-.--.--.--..-.--.--.--.--.----.-----..-..........a2------------------------------------------

                                                                                                                             ......................      ..................
                                        ------                ------------------


               70 --

               60 -
               ~o

               40   .

               so ‘“”
               20 ““”                                                                                                       . .. .. .. ........          ..................

               10 ..                                                                                          ......        ....................
                o
                              1980                           W91                          lw3                              1994                          1s96
                                                                                          YEAR

                                 =          SATISFIED                       ~         DISSATISFIED                           =          NEITHER




BENEFICIARY UNDERSTANDING OF AND SATISFACTION                                                                                                                WIT’H CERTAIN
MEDICARE SERVICES HAS IMPROVED

Compared to 1994, beneficiary understanding of and satisfaction with Medicare
services improved. The beneficiaries are more satisfied with claims processing,
including the speed with which carriers pay their claims. Beneficiaries also have a
better understanding in 1995 of home health and hospital payments than in 1994.

FewerBen@ciaties Iden@ied ChzhrLS
                                l%c&g                                                                 Boblims

Although 87 percent of beneficiaries are at least generally satisfied with claims
processing, some had encountered difficulties with the way Medicare processed their
claims. When given a list of possible reasons beneficiaries might be dissatisfied, 19
percent of the beneficiaries surveyed identified one or more problems with their last
Medicare claim. However, fewer beneficiaries cited problems in 1995 than in 1994
when 30 percent cited one or more problems.




                                                                                          8

Figure 8 shows claim processing problems beneficiaries experienced before their
claims were paid. Numbers in the figure represent the percent of all beneficiaries
surveyed.
                                     FIGURE 8
         BENEFICIARY PROBLEMS PRIOR TO PAYMENT OF CLAIMS




                 10 -------         ..............................................................................




                  o
                          Problem       Qetting         Claim Statu8                             Ciaim payment                    Taking         Too LonO


                                    =       f991              ~         19S3            ~        1994             ~         1$96



Figure 9 shows claims processing problems beneficiaries experienced after their claims
had been paid. Numbers in Figure 9 represent the percent of all beneficiaries
surveyed.
                                     FIGURE 9
          BENEFICIARY PROBLEMS AFTER PAYMENT OF CLAIMS

                PERCENT


          ‘“~




          30



          20                                                             .................................................................................................

                                                                                                                                     13
                                                                                                                                   rzzl           11
          10

           0 Understanding        Cisinm P~ymerrt                      Undw~tmrding               Clmima D.nisi                    Undwatanding                  EOM
                                                 .... . . .... .   .


                              m         1991               Izza 1993                    m          1994                lxx! 1996




                                                                                   9

More   Ben@cHa    Ezpras Satisfactiimwithlhe Sped of ClkimPayments

Eighty percent of beneficiaries said Medicare carriers pay claims quickly enough. This
is an increase from 1994, when 73 percent expressed satisfaction with the speed of
claims processing.




In 1994, 32 percent of the beneficiaries who had received home health services said
they did not understand what home health services Medicare had paid for. This
percent decreased to 11 in 1995.


CERTAIN MEDICARE PROGRAM SERVICES WHICH NEEDED
IMPROVEMENT IN 1994 CO NTINUED TO NEED IMPROVEMENT                          IN 1995

Overall, beneficiary understanding of and satisfaction with Medicare program services
is positive. However, some trouble spots remain. Our 1995 beneficiary survey showed
problems with carrier telephone services, second surgical opinions, physicians fees,
appeals, and hospital payments.

~ti          EqMienced Di@ukly calling neir Ciu7im

About 16 percent of the beneficiaries surveyed had tried to call their carriers.
However, 5 percent of the beneficiaires answering our question said they had wanted
to call, but did not have their carrier’s phone number.

While beneficiaries who called their carriers generally expressed satisfaction, over half
said they experienced problems. They had difficulty getting access to their carriers,
using carriers’ automated voice systems, and getting answers once they got through to
the carriers.

The beneficiaries who had called their carriers were given a list of possible reasons
why they might have been dissatisfied the last time they called. They could cite as
many problems as they experienced.




                                            10

Table 3 shows the number of beneficiaries experiencing problems over the last 3 years.


                                        TABLE 3
           BENEFICIARIES           WITH PROBLEMS CAUING                   CNUUERS


                            “ YEAR                   “Ix3Nlqc-
                                                   HAVIiUG        ~R@LEMS
                                                                                  I


                              1993                                50%
                              1994                                52$Z0
                              1995                                58%



Getting telephone access with carriers is difticult for beneficiaries. In 1994, 26 percent
of beneficiaries who had tried to call their carriers had to call 3 or more times to get
through. In 1995, 28 percent said they had to try three or more times. Further, 3
percent were unable to get through at all. Table 4 shows that getting access to a
Medicare carrier is a continuing problem.


                                          TABLE 4
                                     CALLING CARRIERS
             r’-
              ::lqJIi@lgl    OF ~.          1-        1      1~             1~~

                       First Try            35%              46tZo          45%
                     Second Try             25%              24%            24%
               Three or More Tries          32%              26%            28?40
                Never Got Through           8%               4%             3%




Figure 10 illustrates the specific type of problem beneficiaries had getting through to
the carriers to get questions answered. Numbers shown in the chart represent the
percent of beneficiaries who had called their carriers.




                                             11

                                                 FIGURE 10
      BENEFICIARY            PROBIEMS             GETTING THROUGH                                  TO CARRIERS


                    PERCENT
              100

               90

               80

               70   h"""--""-""---""'""""""-""-""-""-"""""-"""""-"--"--""-""-"""""-""-"""""""""""""""""""""-""-""-"""""-"--""-
               00

               60
                             ............................................................
                               K­
                                                                                         .




                                                                             .................
                                                                        ................. .. ................................
                                                                            4s                                                  1
                                                                                           ......................................................




               40

               90                                                       H......-..
                                                                                --.. -..-.    1
                                                                                       =..-..-..
               20

               10
                0
                                  LINE BUBY                                 PUT ON HOLD


                        m     1989     m     1991     m    1993      Issl    1994             m         1995




Using automated voice systems is difficult for some beneficiaries. Thirty-seven percent
of the beneficiaries who had called their carriers reached automated voice systems
rather than carrier employees. Table 5 shows that about the same percentage of
beneficiaries encountered automated voice systems in 1995 as did in 1994.

                                        TABLE 5
                                AUTOMATED VOICE SYSTEM

        “’*         -“LED              BY:             1991             1993                      1994                          1995

        AUTOMATED              VOICE                   235Z0           31%                        36%                           37%
        CARRIER         EMPLOYEE                       77?Z0            699Z0                     64%                           63%



Forty-four percent (23 of 52) of the beneficiaries using automated voice systems in
1995 said they encountered problems using the systems. Although this is less than in
1994 when 73 percent experienced problems, it still indicates a problem for
beneficiaries.

Some beneficiaries   experienced other problems after getting through. Figure 11 shows
the specific problems beneficiaries experienced after they got a telephone connection
with their carriers.




                                                          12

                                                FIGURE 11
  BENEFICIARY          PROBLEMS             AFI’ER GETTING THROUGH                                  TO CARRIERS



                PERCENT
          60



          40



           30



           20



           10



            0
                      D;:?&REIEnlT         UN COURTEOU     8            AN~ER8     NOT             QUESTION
                                                                        UNDERSTOOD               UMAN6WCRED



                    -1989              =    1991         Iiliizl 1993        m     1994      m     1996




Mwt Ben@iiiries Were Not Aware thatMdikare l%wkiesfor Second StugicalOpiitiom

In 1994, almost two-thirds (64 percent) of all beneficiaries surveyed were not aware
that Medicare pays for a second opinion on the need for surgery. Table 6 shows that
60 percent of the beneficiaries sumeyed in 1995 still did not know Medicare paid for
second opinions.

                                             TABLE 6

                                     SECOND SURGICAL OPINIONS


    I                                                    I ,19S”            1991          1993     1994       1995
                                                                                                                     I
                                                                                                                     A
        UNAWARE OF SECOND                                   57%             59%           61%      64$Z0      60%
         SURGICAL OPINIONS

Many Bene@iati        Were Not Aware thatMedicareLi.mh P~sician Fees

In our 1995 survey, we asked beneficiaries if they knew Medicare limits the fees that
physicians can charge for specific services. Twenty-six percent of the beneficiaries did
not know about the limits. This percent is the same as in 1994.




                                                               13

Many Be@%h&s          WmNotAware       Of17ieirApIRig#m

In 1994, 31 percent of the beneficiaries we surveyed did not know they could appeal
or request a review of decisions Medicare carriers made about their claims. In 1995,
34 percent lacked such knowledge. Table 7 shows that the number of beneficiaries
who did not know they could appeal or request a review of their Medicare claims has
increased every year since 1991.

                                    TABLE 7
                          AWARENESS OF APPEAL            RIGHTS




                II
         1989            I             24%             II
                II          1991            I             2270            II
                II          1993            I             25%             II
                II
         1994            I             31%             II
                II          1995            I             34%             II



In 1995, 4 percent of the beneficiaries said they had appealed a Medicare decision on
their claims. This response was about the same in 1994 when 5 percent said they had
appealed a decision.

Some Bewfkiaries      Do Not Undkmtiuui
                                     Appeal Deciions

We asked beneficiaries who had appealed about their understanding of final decisions,
and their opinion about the fairness of the decision. Table 8 shows their responses.

                                     TABLE 8
                             OPINIONS ABOUT APPEALS

                                                  1993          1994   “ 1=    .:
       I




           Thought Appeal Handled Fairly          59%        62%        73%
           Understood Final Decision              67%        76%        69%

About one-third (32 percent) of the beneficiaries who had appealed said they were not
satisfied with the time it took to get a final decision on their appeal.




                                            14

some Bene@mA      Do N& Uiukmand Hmpitd Payments

In 1994, 23 percent of the beneficiaries who had been hospitalized since covered by
Medicare said they did not understand what hospital services Medicare had paid for.
In 1995, 19percent said they didnotunderstand hospital pa~ents.

OTHER PROGRAM         SERVICES    ALSO NEED IMPROVEMENT

In our 1995 survey, HCFA requested that we ask beneficiaries about their awareness
of certain Medicare program services that we had not included in our prior reports on
beneficiary satisfaction. The beneficiaries we sumeyed indicated a need for
information on four semices. They are influenza immunizations, mammograms,
hospice care, and quality reviews by Peer Review Organizations.

Flu Immunizations: Twenty-four percent of the beneficiaries did not know Medicare
paid for flu immunizations.

M~()~~is      Twenty-four percent of the female beneficiaries surveyed did not
know Medicare paid for mammograms.

Hospice Care: Forty-two percent of beneficiaries did not know Medicare paid for
hospice care. Sixteen percent did not know what hospice care is.

Peer Review Organkmtions (PRO): We gave beneficiaries a list of possible places
they might contact if they had a concern about the quality of their health care, and
asked them to check as many as applied. Only 2 percent said they would call their
PRO. Over half (57 percent) of the beneficiaries said they would contact the
physician, hospital, or health care organization that provided the care if they had a
concern about quality. Nineteen percent said they would call their Medicare carrier.
Two percent said they would call their State Board of Medical Licensure and State
Insurance Commission. Forty percent of the beneficiaries said they did not know who
they would call if they had a concern about quality of care.

Over three-fourths (78 percent) of the beneficiaries surveyed did not know each State
has a Medicare-funded PRO to monitor the cost and quality of health care provided
to Medicare beneficiaries.




                                          15

                        RECOMMENDATION

As in previous years, beneficiaries were positive about the Medicare program. Most
said they understand the program and can get information when they need it. Eighty-
seven percent of the beneficiaries said that they were satisfied with the way carriers
processed their Medicare claims. Further, fewer beneficiaries cited problems
                                                                      .         with
claims processing than in previous years.

However, some particular problems identified by beneficiaries need attention by
HCFA.

Tele~hone SeMce

Although most beneficiaries who had called their carriers for assistance were satisfied
with the services they had received, the number experiencing problems when calling
remains high. Further, over one-fourth (28 percent) of the beneficiaries had to call
three or more times to reach their carriers.

Second Surtical OP inions

Sixty percent of the beneficiaries surveyed did not know that Medicare will pay for a
second opinion on the need for surge~.

Phvsician Fees

One-fourth (26 percent) of the beneficiaries surveyed did not know Medicare limits
physicians’ fees for specific services. This is the same as in 1994.




One-fourth (24 percent) of the beneficiaries sumeyed said they did not know they
could appeal Medicare decisions about their claims.

FhI   hUIUniZatiOI’lS   and MammOIZEUIM

One-fourth (24 percent) of the beneficiaries surveyed did not know Medicare paid for
flu immunizations.

One-fourth (24 percent) of the female beneficiaries surveyed did not know Medicare
paid for mammograms.

We recommend that HCFA develop a plan for improving beneficiary satisfaction and
understanding in the trouble areas mentioned above.




                                           16

                   AGENCY                COMMENTS

The HCFA Administrator commented on our report, and concurred with our

recommendation. He reported that HCFA has implemented new Contractor

Performance Evaluation procedures that allow regional offices to expand their reviews

to include customer service areas that need special attention, such as telephone

service. Further, the new procedures ensure that beneficiary input is incorporated into

reviews. The HCFA is also revising letters to beneficiaries to improve the clarity of

information about appeals.


Appendix C shows the full text of the comments provided by HCFA.

                            EN DNOTES


1.	   Health Care Financing Administration, United States Department of Health
      and Human Services, HCFA Statistics, September 1995.

2.
   Office of Inspector General, United States Department of Health and Human
      Services. A Survey of Medicare Beneficiary Satisfaction. 0AI-04-89-89040.

3.	   Office of Inspector General, United States Department of Health and Human
      Services. Medicare Beneficiary Satisfaction: 1991. 0EI-04-90-89030.

4.
   Office of Inspector General, United States Department of Health and Human
      Services. Medicare Beneficiary Satisfaction: 1993. 0EI-04-92-O0480.

5.
   Office of Inspector General, United States Department of Health and Human
      Services. Medicare Beneficiary Satisfaction: 1994. OEI-04-93-00150.




                                       18

                              APPENDIX                  A


           RESPONSES     TO 1995 SURVEY OF MEDICARE           BENEFICIARY
                                  SATISFACTION


     �	
          Not every respondent answered every question. Percentages are based on
          actual responses. The number of respondents not answering an individual
          question is not included in the calculation of percentages.

     �	
          For Questions 10, 11, 12, 14, 21, and 25, respondents could check more than
          one choice. The sum of the percentages will total more than 100.


Question                                    Responses          Percentage

PART 1: MEDICARE          COVERAGE

1.        In gene@   do you think...

          a.    The Medicare program is understandable?

                Yes                               724                 80
                No                                181                 20
                Not Answering:   37

          b.    You can get information about Medicare when you need it?

                Yes                               718                 78
                No                                 48                  5
                Don’t Know                        155                 17
                Not Answering:   21

          c.    Medicare pays your claims quickly enough?

                Yes                               728                 80
                No                                 82                  9
                Don’t Know                        103                 11
                Not Answering:   29




                                          A-1
Question                                        Reqxmses                      Percentage

2	        Thinkingabout the last time you were a patient in a homitzd for at bst                                  one
          nigh~ was it clear to you what Medicare paid for?

          (Check ~         answer.)

           I have not been in the
            hospital for at least
            one night since I have
            had Medicare.                                 318                           35
           Yes, it was clear what
            Medicare paid for.                            398                           43
           No, it was @ clear what
            Medicare paid for.                             114                           12
           I do not remember if it
            was clear what Medicare
            paid for.                                       80                            9
           Medicare has not yet paid
            the hospital.                                   10                            1
           Not Answering: 22
---------------------------- ------------------------- ---------- ---------------------- ---------------------------- ---.-

3.	       Think about the last time you were a patient in a hospital for at least one
          night.

          Were you given written information that said you have a right to request a
          review if you think the hospital is forcing you to leave before you are well
          enough?

          (Check one answer.)

          I have not been in the
           hospital since I have
           had Medicare.                                   303                          34
          Yes, I was given written
           information about my
           right to request a review.                      207                          23
          No, I was not given written
           information about my
           right to request a review.                      186                          21
          I don’t remember.                                208                          23
          Not Answering: 38




                                                          A-2
Question                                                         Responses                        Percentage

4.
          Have you ever received services in vour home from a home health a~ency in
             the last year?

             Yes                                                              139                           15
             No (Skip to Question 6)                                          775                           85
             Not Answering: 28
. .. ...... .. ...... .. ... .. ......... .. ... ........................... ---------- -------------------------------------------
5.	          Thinking about the mo6t rexxmt time you received medical seMces in vour
             home from a home health aizency, was it clear to you what Medicare paid for?

           Yes, it was clear what Medicare
             paid for.                                               103                          77
           No, it was @ clear what
             Medicare paid for.                                       15                          11
           I do not remember if it was
             clear what Medicare paid for.                            14                          11
           Medicare has not yet paid for
            the home health services.                                  2                           1
           Not Answering: 4
------------------------- -------------------------- -------------------------- -------------------------- ---------------
6.           Before today, did you know that Medicare pays for flu shots (immunizations)?

             Yes                                                              709                              76
             No                                                               221                              24
             Not Answering:             12
---------------------   -------------------------   ---------------------------     -----------------------------    ---------------
7.           Before todav, did you know that Medicare pays for mammojyams (breast x-
             rays to detect cancer)?
                                                    &l    Females
             Yes                                    639   399 (76%)   70
             No                                     279    129 (24%)  30
             Not Answering: 24

8.           Before today, did you know that Medicare pays for hospice care?

             Yes                                                              392                              42
             No                                                               386                              42
             I don’t know what
              hospice care is.                                                151                               16
             Not Answering 13




                                                                A-3
Question                                                   Responses                    Percentage


9.
       Before today, were you aware that your State had a Medicare-funded Peer
          Review Orga.nintion (PRO) to monitor the cost and quality of care provided
          to Medicare recipients? (The purpose of Peer Review Organizations preceded
          the question.)

           Yes                                                       203                          22
           No                                                        711                          78
           Not Answering: 28
------------------------ ---------------------- --------------------------- ----------------------------- ----------------
10.	      In the pas~ if you had a concern about the quality of your medical care, whom
          did you call? (Check all that apply.)

          (N = 892-        Number Responding to Question)

           I did not have
            a concern                                                491                            55
           I did not know who
            to call                                                  151                            17
           Insurance company that
            pays Medicare claims                                      75                             8
           Medicare PRO                                               10                             1
           State Board of
            Medical Licensure                                         11                             1
           State Insurance Commission                                  5                             1
           Hospital or organization
            that provided care                                       123                            14
           Doctor that provided care                                 180                            20
           Not Answering: 50
--------------------------- ---------------------- -------------------- -------------------------   ..
11.       What types of medical insurance do you or your spouse have in addition to
          Medicare?

          (N=      800-    Number Responding to Question)

          Do not have additional
           insurance coverage                                        132                            17
          Medicaid                                                    94                            12
          Health insurance through your
           or your spouse’s current or
           former employer                                          338                             42
          Private Medicare supplement                               256                             32
          Other                                                      3                               1
          Not Answering: 142


                                                          A-4

Question                                 Responses          Percentage

PART 2     GE’ITING INFORMATION          ABOUT MEDICARE

12
    Where would you go to get information about what Medicare pays for?
       The following are some places people might go to get answers if they have
       questions about what Medicare pays for. (Check all that apply.)

       (N=   908-   Number Responding to Question)

       Your doctor’s office                    632                 70
       Friend or relative                      104                 11
       AARP or other
        membership organization                126                 14
       Insurance company that
        processes your Medicare claims         367                 40
       Medigap insurance company               209                 23
       Social Security office                  299                 33
       Local senior citizens’ group             58                  6
       Insurance salesperson                    27                  3
       Medicare Handbook                       506                 56
       Medicare Peer Review
        Organization (PRO)                      38                  4
       Your State’s ICA                         26                  3
       Not Answering: 34




13.
   Think of when you needed specific information about what Medicare pays for,
       how often were you able to get the information you needed?

       (Check ~     answer.)

       Most of the time                        391                 44
       Some of the time                        105                 12
       Seldom or never                          51                  6
       I have never needed information         348                 39
       Not Answering: 47




                                         A-5
Question                                Responses            Percentages


14.
   Listed below are Medicare booklets that you can obtain free of charge.   Please
       check the booklets you were aware of before today.

       (N=   942- Number Responding to %uvey)

       Guide to Health Insurance for
        People with Medicare                   249                  26
       Guide to Choosing a Nursing Home         69                   7
       Medicare Coverage for Second
        Surgical Opinion                        67                  7
       Medicare Hospice Benefits                75                  8
       Medicare and Coordinated
        Care Plans                              43                   5
       Medicare and Other Health Benefits      173                  18
       Medicare and Home Medical
        Equipment                               93                  10
       How to Help Medicare from Being
        Ripped Off                              81                  9


15.
   Do you know how to obtain the free booklets?
       (Instructions for ordering were provided.)

       Yes                                     227                  25
       No                                      672                  75
       Not Answering:   43




PART 3: MEDICARE        CLAIMS




16.
   Did you know before today that Medicare limits how much doctors can charge
       you for specific semices?

       Yes                                     658                  74
       No                                      233                  26
       Not Answering:   51




                                        A-6

Question                                                         Responses                              Percentages


17.
         Did you know before today that your doctors are supposed to file your
             Medicare claims for you?

           Yes                                                       854                            93
           No                                                          69                            7
           Not Answering: 19
---------- ------------------------ ----------------------- ---------- ------------------------------------- --------------

18.
         Ove@    how satisfied are you with the way Medicare has processed your
             claims?

             Very Satisfied                                                      438                                  48
             Generally Satisfied                                                 360                                  39
             Neither Satisfied nor Dissatisfied                                   73                                   8
             Generally Dissatisfied                                               17                                   2
             Very Dissatisfied                                                    11                                   1
             Medicare has not yet paid claim                                      16                                   2
             Not Answering: 27
--------------------    ----------------------------   -----------------------         ----------------------------        -------------------
19.	         Did you have any of the following problems the last time you had a Medicare
             claim for a doctor’s visit?

             (Check as many as apply.)

             (N=       861-     Number Responding to Question)

             I had difficulty getting information
               on the status of my claim.                                        10                                   1
             I did not understand what part of
               my claim Medicare paid and why.                                   55                                   7
             I did not understand why Medicare
               denied the claim.                                                 27                                   3
             Medicare took too long to pay.                                      36                                   4
             I did not understand the notice
               Medicare sent (EOMB).                                             28                                   17
             I did not have a problem with my
               Medicare claim.                                                   699                                  81
             Other                                                                 6                                   1
             Not Answering: 81




                                                                A-7

Question                                                  Responses                              Percentages

PART 4        CMLING           MEDICARE


20.	      Have you ever tried to call the insurance company that processes your
          Medicare claims?

          Yes                                                       140                          16
          No, Have not needed to call                               699                          79
            (skip to Q-25)
          No, Wanted to call, but do not
           have telephone number                                     43                           5
            (skip to Q-25)
          Not Answering: 60

21.	      Thinkingabout the last time you tried to @                        how many tries did it take you to
          reach them?

          (N=      140- Number Who Had Called Carrier)

           First Try                                                  59                          45
           Second Try                                                 32                          24
           Three or More Tries                                        37                          28
           Never Got Through                                           4                           4
           Not Answering: 8
------------------------- ------------------------ ------------------------- ---------------------------- ----------------
22.       How satisfied were you with the seMce you received the last time you called?

          (N=      140- Number Who Had Called Carrier)

          Very Satisfied                                             47                          35
          Generally Satisfied                                        69                          50
          Neither Satisfied nor Dissatisfied                          6                           4
          Generally Dissatisfied                                      6                           4
          Very Dissatisfied                                          10                           7
          Not Answering: 2




                                                         A-8
Question                                                  Responses                              Per=ntages

23.	      Listed below are Possible problems someone might have when calling the
          Medicare insurance company. Did you have any problems the last time you
          called? (Cheek as manv as ardy.)

          (N=      140- Number Who Had Called Carrier)

           Line was busy                                              59                          45
           Had problems with automated
             voice system                                             23                           18
           Person answering the call
             was not very courteous                                    4                            3
           Put on “hold” too long                                     34                          26
           Was not able to get question answered                      11                            8
           Could not understand the answer
             they gave me                                              6                            5
           Got different answers from
             different people                                         33                           13
           I did not have a problem with
             the semice I received                                    55                          42
           Not Answering: 10
-------------------- ------------------------- ------------------------- ----------------------------- -------------------

24.	      Some Medicare insurance companies use an automated voice system to handle
          telephone calls. Thinking about the last time you cane@ how was your call
          answered?

          (N=      140- Number Who Had Called Carrier)

          By an automated voice                                     52                            37
          By a Medicare employee                                    88                            63
          Not Answering: O




PART 5: APPEALING                  CLAIMS

25.	      sometimes people disagree with the decisions made on their Medicare claims.
          When this happe~ you may appeal or request a review of those decisions.
          Did you know before today that you could appeal or request a review?

          Yes                                                       604                           66
          No                                                        305                           34
          Not Answering:          33




                                                          A-9

Question                                                  Responses                              Percentages

26.	      Have you ever appealed a decision made by Medieare on a claim you
          submitted?

           Yes                                                       31                            4
           No (Skip to @31)                                         850                           96
           Not Answering: 61
--------------------------- -------------------------- ----------------------------- --------------------- ---------------
27.	       How soon after Medieare made the decision on your claim did you file your
           appeal?

          (N=      31- Number Who Had Appealed)

           Within 1 month                                             17                          61
           Within 3 months                                             9                          32
           Within 6 months                                             2                           7
           Not Answering: 3
---------------------------- ------------------------ --------------------- ------------------------ ---------------------
28.	      Were you satisfied with the length of time it took to get a final deeision on
          your appeal?

          N = 31- Number Who Had Appealed)

           Yes                                                        19                          68
           No                                                          9                          32
           Not Answering: 3
------------------------------ -------------------- ------------------------- --------------------- ----------------------
29.       Did you understand the final deeision made on your claim?

           (N=     31- Number Who Had Appealed)

          Yes                                                          20                         69
          No                                                            9                         31
          Not Answering:           2

30.
       Do you think your appeal was handled fairly?
           (N= 31- Number Who Had Appealed)

           Yes                                                        22                          73
           No                                                          8                          27
           Not Answering:          1




                                                         A-10

Question                                                           Responses                     Percentage

PART 6            GE’ITING SECOND OPINIONS


31.
        If your doctor recommends that you have surgexy, Medicare will help you pay
            to get the opinion of another doctor to make sure the surgery is really
            neeeswy.    Were you aware before today that Medieare would help to pay for
            you to get a seeond opinion before having surgery?

           Yes                                                       367                          40
           No                                                        550                          60
           Not Answering: 43
--------------------- ----------------------- ---------------------- --------------------- --------------------------- ----
32           Thinking about the last time you had non-emergeney surgery, did you get a
             second doctor’s opinion before having the surgery?

             Yes                                                                125                           14
             No                                                                 366                           41
             I have never had non-emergeney
               surgery                                                          404                           45
             Not Answering: 47
----------------------   --------------------------      --------------------------------   ---------------------------   -----------
33.	         Now that you know Medicare will help you pay for a second doctor’s opinio~
             how likely are you to get a seeond opinion should you need non+mergeney
             surgery?

             Likely to get second opinion                                       709                           80
             Not likely to get second opinion                                   181                           20
             Not Answering: 52




PART 1             “PARTICIPATING                     IXXXORS”          PROGRAM

34.	         Medieare has “participating doctors” who agree to charge no more than
             Medieare’s approved amount. Mediea.re pays 80% of the approved amount.
             You are only responsl%le for paying the deduetiile and the 20% coinsurance.

             Before todav, had you ever heard about Medieare “participating doctors?”

             Yes                                                                735                           80
             No                                                                 186                           20
             Not Answering:             21




                                                                  A-n
Question                                                      Responses                       Percentage

35.          Are any of your doctors “participating doctors?”

             Yes                                                           653                             71
             No                                                             52                              5
             Don’t Know                                                    219                             24
             Not Answering:           18


36.
         Have you ever eontaeted the insurance company that processes your Medieare
             claims to get the names of doctors who are “participating doetors?n

             Yes                                                            56                              6
             No                                                            709                             77
             I did not know I could get this
               information from the insurance
               company that processes my claims                            156                             17
             Not Answering: 21
---------------------------   ---------------------------   ---------------------------   ------------------------   ------------


37.          Thinking about the future, how likely are you to seleet a “participating doctor”
             for health care seMees?

             Likely to select
               “participating doctor”                                      611                             69

             Not likely to select
              “participating doctor”                                        70                              8

             Will not matter if doctor
               is “participating”                                          202                             23

             Not Answering: 59




                                                            A-12

                             APPENDIX                  B


             ANALYSIS    OF RESPONDENTS          VS. NON-RESPONDENTS

A consideration in surveys of this type is that the results maybe biased if non-
respondents are significantly different from respondents. To determine whether
significant differences exist in this survey, we performed various analyses, including a
comparison of age and gender for the 942 respondents and the 302 non-respondents.
The analyses revealed no significant difference, which suggests that our survey results
were not biased.

ANALYSIS BY AGE

The average age for respondents was 72, compared to age 73 for non-respondents. A
means test revealed that the difference in average ages for the two groups was not
statistically significant.

ANALYSIS     BY GENDER

A chi-square analysis of gender showed that the distribution of male and female
respondents was comparable to the distribution of non-respondents.


                  S&mm            REsPoNJy3NTs          NON-RESPONDi3NIS          \
I


                     40%                 43%                      39%
    FEMALE           60%                 57%                      61%

ANALYSIS     BY TIME OF RESPONSE

As an additional guard against obtaining biased results, some sumeys similar to this
one are reviewed for differences which may exist between early and late responses.
The rationale is that late respondents and non-respondents may share certain
tendencies. For example, when compared to early respondents, late respondents could
hold more negative (or, at least, less enthusiastic) opinions.

To analyze for potential bias related to time of response, the first 719 responses (76
percent) were compared to the last 223 responses. We then performed a t-test on
each group’s responses to three key questions on the questionnaire (Questions la, lb,
and lc). Those three questions, posed to all respondents, relate to program
understandability, availability of information, and claims processing quickness. The
early responses to the key questions were, cumulatively, 79.0 percent positive. The
later responses were 79.3 percent positive. Based on the t-test, this difference is not
statistically significant.



                                          B-1

 APPENDIX   C




HCFA COMMENTS




      c-1
